<html>
<title> - Mosque and State in Central Asia: Can Religious Freedom Coexist with Government Regulation of Islam?</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



115th Congress }                            Printed for the use of the             
2nd Session    }      Commission on Security and Cooperation in Europe                       

======================================================================

	        Mosque and State in Central Asis:
	       Can Religious Freedom Coexist with
	           Government Regulation of Isam?



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




                         December 17, 2018

                           Briefing of the
          Commission on Security and Cooperation in Europe
------------------------------------------------------------------------
                         Washington: 2019




      Commission on Security and Cooperation in Europe
                  234 Ford House Office Building                                               
                   Washington, DC 20515
                      202-225-1901
                      <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d0e1e0e082d000c0401430502181e08430a021b">[email&#160;protected]</a>
                      http://www.csce.gov
                         @HelsinkiComm

                                      
                                      
                                      
            Legislative Branch Commissioners



              HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	ROGER WICKER, Mississippi,
          Co-Chairman			  Chairman
ALCEE L. HASTINGS, Florida		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina		JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois		THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas		TOM UDALL, New Mexico
GWEN MOORE, Wisconsin			SHELDON WHITEHOUSE, Rhode Island                      
       
                 

               Executive Branch Commissioners
               
               
                    DEPARTMENT OF STATE
                   DEPARTMENT OF DEFENSE
                  DEPARTMENT OF COMMERCE
                            [II]


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.


Mosque and State in Central Asia: Can Religious Freedom Coexist with
                    Government Regulation of Islam?


                           December 17, 2018


                                  					Page
                              PARTICIPANTS

    Everett Price, Senior Policy Advisor, Commission on Security and 
Cooperation in Europe                                                      1

    Nathaniel Hurd, Senior Policy Advisor, Commission on Security and 
Cooperation in Europe                                                      9

    Dr. Kathleen Collins, Associate Professor, Political Science, and 
Russian and Eurasian Studies, University of Minnesota                      3

    Dr. Emil Nasrutdinov, Associate Professor of Anthropology, American 
University of Central Asia                                                 5

    Dr. Edward Lemon, DMGS-Kennan Institute Fellow at the Daniel Morgan 
Graduate School of National Security                                       7

                                APPENDIX

    Forum 18 statement for the record on religious freedom in Central 
Asia                                                                      29

    Journal article for the record: ``Counter-extremism, Power, and 
Authoritarian Governance in Tajikistan''                                  31



 
Mosque and State in Central Asia: Can Religious Freedom Coexist with
                   Government Regulation of Islam?
                   
                              ----------                              

                           December 17, 2018




    The briefing was held at 3:04 p.m. in room 562, Dirksen Senate 
Office Building, Washington, DC, Everett Price and Nathaniel Hurd, 
Senior Policy Advisors, Commission on Security and Cooperation in 
Europe, presiding.
    Panelists present: Everett Price, Senior Policy Advisor, Commission 
on Security and Cooperation in Europe; Nathaniel Hurd, Senior Policy 
Advisor, Commission on Security and Cooperation in Europe; Dr. Kathleen 
Collins, Associate Professor, Political Science, and Russian and 
Eurasian Studies, University of Minnesota; Dr. Emil Nasrutdinov, 
Associate Professor of Anthropology, American University of Central 
Asia; and Dr. Edward Lemon, DMGS-Kennan Institute Fellow at the Daniel 
Morgan Graduate School of National Security.

    Mr. Price. Good afternoon. Thank you--we're very glad to have you 
here. My name is Everett Price, and this is my colleague Nathaniel 
Hurd. On behalf of our chairman, Senator Roger Wicker of Mississippi, 
and co-chairman, Congressman Chris Smith of New Jersey, we would like 
to welcome you to this Helsinki Commission panel entitled ``Mosque and 
State: Can Religious Freedom Coexist with Government Regulation of 
Islam?'' Nathaniel and I will be moderating this panel together, he in 
his capacity as a Helsinki Commission senior policy advisor for 
religious freedom, and I in my capacity as senior policy advisor with 
responsibility for Islamic affairs in Central Asia.
    The gravity of the situation facing religious freedom in Central 
Asia is underscored by the U.S. State Department's decision just last 
week to redesignate Tajikistan and Turkmenistan, alongside eight other 
countries, as countries of particular concern, or CPCs, for engaging in 
or tolerating systematic, ongoing, and egregious violations of 
religious freedom. Turkmenistan and Tajikistan have appeared on the 
list for the past 3 years. A third Central Asian country, Uzbekistan, 
had also appeared on the State Department's list since 2016, but was 
upgraded this time to a special watchlist, reflecting modest 
improvements in its respect for the religious freedom of its citizens. 
Uzbekistan's positive trajectory of incremental reforms began following 
the death of the country's longtime strongman leader Islam Karimov in 
2016.
    Since that time, Karimov's successor, current President Shavkat 
Mirziyoyev, has demonstrated his interest at opening the country to 
increase foreign investment in part by loosening some of the Karimov 
era's strictest regulations on public and private life. One element of 
this reform plan includes amendments to the national law governing 
religious affairs and institutions, which we understand the government 
is currently drafting and preparing for public comment. Nathaniel and I 
traveled to Uzbekistan last month to hear from Uzbekistani officials 
and civil society about the changes taking place there, particularly in 
the religious sphere. Despite the government's professed desire to 
enact more permissive regulations on religious life, the arguments 
opposing far-reaching reforms are cast in terms of national security 
and regime stability--namely, that the ebb of government control over 
religion will inevitably cede territory to religious-based political 
activism and potentially violent extremism.
    Indeed, the terms of this argument are familiar in Central Asia, 
not to mention in other parts of the Muslim world, where Islam 
simultaneously occupied a revered position in national, social, and 
private life, while also preoccupying national security agencies and 
regime loyalists who fear its potential to catalyze political 
opposition and terrorism. These concerns have some merit. In one of the 
most recent and dramatic incidents of Islamic extremist violence in 
Central Asia, this summer an ISIS-linked terrorist cell in Tajikistan 
carried out the horrific murder of four cyclists, including two 
Americans, in the southwestern Danghara District. Such incidents only 
reinforce the inclination of all five Central Asian countries to 
prioritize national security and their administration of religious 
affairs, in particular by strictly regulating and often outright co-
opting and controlling Islamic belief and practice.
    In a statement for the record submitted today to this briefing, the 
renowned international religious freedom monitoring organization Forum 
18 underscored how Islamic institutions are subject to particularly 
invasive state interventions, compared with minority faiths, 
effectively controlling Islam not just from the outside, but also from 
within. The statement reads: ``These states have effectively subsumed 
the only permitted Islamic bodies into the apparatus of the state. The 
regimes control all clergy appointments, especially at senior levels, 
and remove clerics as they see fit. Some of them even dictate the 
sermons that imams are allowed to preach in the mosques they do permit 
to exist.''
    Yet such a heavy-handed and security-minded approach violates the 
religious freedom of individuals that is enshrined in the national 
constitutions and international commitments of these states. The 
resulting dilemma begs the question that serves as the subtitle to this 
briefing today: Can religious freedom coexist with government 
regulation of Islam?
    To help answer this question, we have convened a superb panel of 
Central Asia experts who have studied these matters from numerous 
angles and over dozens of years. Their remarks will help us to 
understand the reality of state regulation of Islam, and the intended 
and unintended consequences of this heavily centralized policy. They 
will also help us understand the terms of the policy debate between 
religious freedom and national security, and hopefully suggest ways to 
escape this binary that appears to propose a zero-sum tradeoff between 
the two.
    I'm sorry to say that our fourth panelist, Peter Mandaville, has 
taken ill and will not be able to participate. We will genuinely miss 
his contribution, which was to focus on policy lessons from other 
approaches to state regulation of Islam elsewhere in the Muslim world.
    First this afternoon we'll hear from Professor Kathleen Collins of 
the University of Minnesota, who will provide a brief overview of her 
extensive research and of the mechanisms and consequences of state 
control of Islam in Central Asia. Next we will hear from Professor Emil 
Nasrutdinov of the American University of Central Asia in Bishkek, 
Kyrgyzstan. Professor Nasrutdinov will describe key conclusions from 
his research into radicalization, particularly in his home country of 
Kyrgyzstan, the only semi-free country in the region that applies 
somewhat less draconian approaches to Islamic practice when compared to 
other regional states. And finally, we'll have Dr. Edward Lemon DMGS-
Kennan Institute fellow at the Daniel Morgan School, who will explore 
the case of Tajikistan, where he's conducted extensive research into 
the state's harsh counterextremism policy.
    I will refer you to your audience folders for their full 
biographies, which are impressive, which goes without speaking, of 
course. And unless my colleague Nathaniel has any comments, I will turn 
the floor over to Dr. Collins.
    Thank you.
    Dr. Collins. Thank you very much. Good afternoon. Thank you for 
coming. And thanks especially to the Helsinki Commission and to Everett 
and Nathaniel for organizing this panel.
    I will focus my brief remarks today on three points. First, 
religion in the Central Asian states, particularly Islam, continues to 
be the target of aggressively secular government policies. A few years 
ago, a young man I interviewed in Kyrgyzstan characterized the 
government as atheist oppressors even worse than the Soviet Union. The 
post-Soviet states are not any longer seeking to eradicate Islam, the 
way the Soviet Union was. However, despite some concessions to 
religious practice, government elites generally view any manifestation 
of independent Islam as inherently political, radical, and a threat to 
their survival.
    Two caveats are in order, one of which Everett just talked about. 
One is that Uzbekistan has, over the past year or so, made some 
significant improvements under President Mirziyoyev, and things seem to 
be in process there to ameliorate the situation in terms of religious 
freedom for Muslims as well as Christians.
    Second, there is also some variation, certainly regionally, de 
facto and de jure. My comments to initiate this panel are somewhat 
broad, sketching out the situation in the region. Turkmenistan still 
remains the worst-case scenario, as it has long been, and Tajikistan is 
still the best. And yet, many Soviet-style laws and practices on 
religion severely regulate Islam. The Soviet attitude of a sort of 
atheist suspicion of Islam I think still pervades the views of many 
government elites. These governments ban any political Islamic activity 
as extremist and terrorist, including not only violent organizations 
such as the Islamic Movement of Uzbekistan, but also the pro-democratic 
Islamic Renaissance Party in Tajikistan and the extreme, but 
nonviolent, party Hizb ut-Tahrir. Those accused of membership are 
subject to torture and lengthy imprisonment.
    The governments also severely restrict or criminalize many 
ordinary, everyday religious practices, including religious education, 
even at home; possessing the Koran on one's cellphone, or one's laptop, 
or even in hard copy; possessing other religious literature; certainly 
proselytization; and various forms of Islamic dress. Furthermore, 
security services control or monitor imams' sermons, and even videotape 
mosque attendees. Unregistered mosques are frequently raided and 
closed. States have threatened, arrested, and occasionally killed 
popular imams who either preach an unsanctioned version of Islam--such 
as Salafism, Shi'ism, Tablighi Jamaat--or who raise a voice on 
political issues, whether it's about corruption or about the right for 
women to wear a hijab. Family members of accused or imprisoned 
extremists are also regularly threatened. As in the Soviet era, it's 
not just radicals but ordinary believers who become the victims of 
state oppression.
    Second, religious oppression has fostered a widespread sense of 
injustice. In addition to corruption and other political and economic 
abuses, people are angered by unjust attacks on their identity and 
beliefs. I've seen this interviewing people across the region with a 
team of Central Asian colleagues. For example, one of our respondents, 
Tahir, believed that a free Islamic practice was essential to justice. 
He said, ``Justice is necessary. And for there to be justice, people 
must live in faith.'' Another man, Alisher, linked the lack of justice 
to state secularism. He said, ``There are many atheists. And they treat 
us believers badly. There is no justice. The situation is very bad.'' 
Shukrat exclaimed, ``Everywhere justice is a problem. We need justice. 
Where there is no justice, evil things happen, like here. Justice is 
every person's demand!''
    A man from the Ferghana Valley explained: ``Now the religious 
schools are gone. There is only one imam for 9,000 people. The mosque 
can't even teach people anymore.'' An older Uzbek woman, Nodira, 
observed that banning home religious teachers for women, otinchas, had 
been awful because now instead of them there are only a lot of 
extremists. Her colleague added that forbidding education caused youths 
to be drawn to radicals. ``They use religion as a weapon and lure 
children to their movements,'' she said. Likewise, one man noted that 
in government those who work in government cannot participate in the 
mosque. This is also generally true of schoolteachers, and students, 
and university students. One young woman even complained that she was 
given a warning merely for carrying an Arabic language textbook in 
public. She had been trying to teach herself Arabic so that she could 
read the Koran.
    Some link such forms of repression to politics. Abumalik from 
Dushanbe complained, ``These officials who are preventing Friday prayer 
are also those who are opposing Muslim unity. If people would work 
according to the Sharia, then many problems in our country would be 
resolved, including corruption.'' He was not an Islamist, but his words 
suggested that he saw repression of Islam as a fundamental political 
problem. Islamist propaganda clearly appealed to some. One man, 
attracted to Hizb ut-Tahrir's ideas, said, ``We want to live in a just 
and fair society. Nowadays there is no justice. But the caliphate was a 
just system.'' And Erkin proclaimed, ``There is no justice, not in 
Kyrgyzstan and not in Uzbekistan! They only talk about democracy. They 
oppress Muslims more now in comparison with the Soviet times, even 
though they talk about freedom of religion. It's because of this that 
we should become an Islamic State!''
    Third, repression of Islam has spawned opposition movements 
centered around politicized Islamic ideas and identity. Islamist 
movements target those angry at injustice. Their ideologies advocate 
Islam, whether an Islamic nation-state, the caliphate, or simply jihad, 
as the solution to injustice. We have seen this pattern take place 
across Central Asia for over three decades now. The latest wave of 
Islamist extremism involving Central Asians is the flow of foreign 
fighters to Syria and Iraq since about 2014. Overall, estimates of 
foreign fighters from Central Asia number from about 3,000 to 5,000. 
The number on the whole seems low, but on the other hand, this is up to 
20 percent of foreign fighters documented there. This is striking for a 
region far from Damascus, where transnational militant Islamism was 
almost unthinkable a decade or two ago.
    On a per capita basis, from 2015 to 2017 Kyrgyzstanis and 
Tajikistanis were particularly high state contributors of jihadist 
fighters. In both countries, religious oppression has escalated 
significantly over the past 10 years as each state has reneged on its 
commitment to democratization and, with that, to religious freedom. The 
case of Kyrgyzstan is telling. There, religious policy was liberal from 
the late Soviet era through the early to mid-2000s. During that time, 
Kyrgyzstan did not have a serious problem with radicalism. Yet, since 
about 2006, there has been a steady increase in repression of Islam, 
both legally and extralegally. This is particularly so amongst ethnic 
Uzbeks in the south. The killing of Imam Rafiq Kamalov and the arrest 
of his son, Imam Rashod Kamalov, both Salafis, generated extreme 
discontent at religious and political injustice. Kyrgyzstan 
subsequently became a significant source of recruits to Syria.
    As of 2017, over 1,300 Kyrgyzstanis had joined militant groups 
there and, according to Radio Free Europe, about 30 percent of these 
jihadists came from the southern region where the Kamalovs lived and 
preached. About 90 percent of those recruits are also ethnic Uzbeks. 
Over the past few years, ISIS and multiple Central Asian battalions, 
affiliates of al-Qaida, have all put forth radical anti-democratic 
ideologies which propose Islam as a solution to political and religious 
injustice, corruption, and the torture of Muslims. They specifically 
endorse violence. They deride Muslim democrats who have sought to work 
within the system, like the Islamic Renaissance Party of Tajikistan. 
Their propaganda videos call Central Asians with slogans such as, ``Do 
not be afraid to fight in jihad,'' or ``The path of honor is jihad.'' 
In one video, the leader of the Unity and Jihad Battalion, an ethnic 
Uzbek from southern Kyrgyzstan preaches, ``Nowadays, Muslims face lots 
of hardships. Women are forced to remove their hijab. Having a beard is 
now a crime. Some Muslims say there is no need for jihad now, but who 
will defend Muslims in Palestine and Syria if there is no need for 
jihad?''
    Hundreds of such messages on social media lure Central Asians to 
fight.
    In short, oppressing religious freedom is a major contributor to 
radicalism. When the state indiscriminately represses many or most 
expressions of Islam, some will inevitably turn to Islamist messages 
and solutions for a just life.
    Mr. Price. Thank you very much.
    Dr. Nasrutdinov.
    Dr. Nasrutdinov. Thank you. Thank you, Everett and Kathleen.
    I would like to continue the discussion that has been started by 
Kathleen. Notwithstanding the criticism, I would still suggest that 
Kyrgyzstan remains the best country in the region, with regard to the 
freedom of religion, with the most liberal religious policy in Central 
Asia. At the moment, we have nearly 4,000 mosques in the country, and 
more than 100 madrasas. This is double the size of the number of 
madrasas for all other Central Asian countries taken together.
    Research shows that madrasas which are governed and regulated by 
the special board of Muslims in Kyrgyzstan have a positive influence on 
reducing vulnerability of people to radicalization, since the curricula 
is standard. It teaches moderate, traditional Islam, which is very 
critical of the radical movements, particularly of the Salafi influence 
in the region. Perhaps the only area where madrasa education is lagging 
is in regard to Russian-speaking madrasas. For nearly 100 madrasas in 
the country, there is no single one that would teach subjects in 
Russian. Thus, we observe a large number of Russian-speaking Muslim 
population in the north of the country, including ethnic Kyrgyz and 
ethnic minorities who are more vulnerable to influence of radical ideas 
because they often cannot simply understand the message given by imams 
on the mosques.
    Yet, there are several influential religious groups, such as 
Turkish Khizmet, Nurjular, Sulaimanchiler, Southeast Asian Tablighi 
Jamaat, and several moderate Salafi groups, which are legal in 
Kyrgyzstan, while they have been banned in other Central Asian 
countries. This relative freedom of religion applies not only to 
Islamic groups, but also to other religious communities as well. There 
are nearly 400 Christian groups which are registered with the state 
committee on religious affairs. Once they are registered, they do not 
experience significant pressures. The only Christian organization that 
is banned in Kyrgyzstan is the Church of Mormon. There are 90 names in 
the list of banned organizations that are all Muslim.
    Kathleen rightly pointed to the complications of relations and more 
pressure on the religious communities from 2006. Yet, approximately 
from 2013-2014, we see a bit of a reversal in the trend. This is caused 
mostly by the change of leadership on three levels. First of all, the 
president himself, the director of the state committee on religious 
affairs, and the sort of grand mufti of the country. In the past there 
were major conflicts between the latter two, the state committee and 
mufti. But since 2014, most of these conflicts have been resolved and 
we observe quite a lot of collaboration. A third actor in this 
collaboration are international organizations, which successfully 
engage with the state and the religious communities in various projects 
on CVE [countering violent extremism], gender, conflict resolution, et 
cetera.
    I would also maybe have a debate with Kathleen in regard to the 
high representation of Kyrgyzstani fighters in Syria, particularly the 
engagement of ethnic Uzbeks. I--as well as our experts--believe that 
figures for Uzbeks might be exaggerated, particularly by the Kyrgyz 
security officials who are mostly homogeneous ethnic Kyrgyz. A lot 
depends on what we look for as a source of information; therefore, 
these kinds of numbers mostly represent the outcomes of a specific 
security project [inaudible] which targeted only Uzbek communities in 
the period of 2013 and 2016, the exact same period when the statistics 
on Uzbeks went up. I agree that Uzbek communities in the south are 
significantly persecuted until nowadays, since the conflict of 2010, 
but there are a number of reasons why you should perhaps take the 
official statistics with a grain of salt.
    But, the big question of ethnic Uzbeks being very important, we 
still see the Kyrgyzstani model as the most progressive and the most 
productive. This peaceful model of groups can function freely. They do 
not see the state as an oppressor. They play an important role in 
drawing the practicing Muslim community away from the more radical 
influences. Yet, with all that, there are still many questions to 
consider, and issues. So last year we conducted research, a nationwide 
study of young people's vulnerability and their resilience to 
radicalization. We conducted this analysis across five major domains of 
young people's life--grievances, politics, religion, socialization, and 
psychology. Our research shows that the grievances are the most 
important factor of vulnerability. Young people who experience 
discrimination have the highest vulnerability score.
    These scores are particularly high for young people who experience 
discrimination from the state officials and from the police. Such young 
people are much more likely to have strong desires to avenge others and 
justify violence for various purposes, including religious ones. Young 
people in Kyrgyzstan grow up seeing a number of social and state 
injustices, and very high levels of corruption around them. They name 
corruption and amorality as the biggest problems of Kyrgyz society. 
They see the state institutions and actors as predatory agents who use 
their privileged positions to make money from the rest of society. The 
theme of corruption and state predation make the core of many young 
people's radical ideas. Members of radical organizations can exploit 
such perceptions to recruit young people, by promising them the just 
Islamic alternative.
    Young people also report a high degree of injustice and 
discrimination, particularly from police, toward practicing Muslims. 
For young women, it is often related to their Islamic attire. 
Nonetheless, young people believe the situation with religion freedom 
and conditions for Muslim populations in Kyrgyzstan are better than 
they are in the neighboring Central Asian countries, Russia, Western 
countries, and China.
    Mr. Price. Professor, can I ask you to summarize the other elements 
of the vulnerability that you're talking about, just in the interest of 
time?
    Dr. Nasrutdinov. Young people's political ideas become more and 
more connected to their religious views. Nearly one-third of the survey 
respondents would support a more religious candidate, and even 
introduction of a Sharia law instead of a constitution. So, we see that 
in regard to the geopolitics, there is a very positive evaluation of 
the influence of Russia, Saudi Arabia, and Turkey, but negative 
evaluation of the influence of United States, Europe, and Iran. China 
is somewhere in the middle, with one exception, in regard to the 
evaluation of the Muslim in their own country.
    The important role of religion is that religious leaders, religious 
imams, and religious scholars have a positive influence. Young people 
who obtain knowledge through personal, face-to-face communication are 
less vulnerable than the young people who obtain information on the 
internet. Socialization is important, and I can talk about this later.
    Mr. Price. Thank you.
    Dr. Lemon.
    Dr. Lemon. Thank you, once again, to Everett and Nathaniel for 
inviting me to speak on this panel. I'm going to focus particularly on 
Tajikistan, which reflects many of the dynamics that Dr. Collins 
introduced in her opening remarks. Three things may separate Tajikistan 
from the other countries within the region, maybe with the exception of 
Turkmenistan. First is the sort of severity of the state secular 
campaign against Islam. As Everett mentioned in his opening remarks, 
Tajikistan has been classified as a CPC for the past 3 years. And like 
the other countries in the region, counterextremism is not really about 
addressing security issues--although that is obviously part of it--but 
it is more sort of about the dynamics of authoritarian politics within 
the region. Effectively, it's a tool for the governments of the region 
to crack down on potential opposition to their role, and effectively 
secure their regimes. Obviously, some of these policies have the 
potential to counter extremism, but that's maybe a secondary objective.
    So what have we seen in Tajikistan? We've seen particularly a focus 
on the visible signs of piety: the forced shaving of men with beards; 
campaigns against women wearing hijab; both official and unofficial 
campaigns. Women have been not allowed to wear hijabs in schools since 
2007--both students and teachers. There have been a series of campaigns 
against men with beards. If there are 100 madrasas operating in 
Kyrgyzstan, every single madrasa in Tajikistan--the 19 that to my 
knowledge operated around 5 or 6 years ago--was closed by 2016. 
Students have been banned from studying Islam abroad since 2010.
    And according to the official statistics issued by the Committee on 
Religious Affairs, last year alone, in 2017, 1,938 mosques were closed 
in the country for not meeting with government regulations. In viewing 
this in some ways as being post-Soviet, the official statements said 
that these were turned into cultural centers, youth clubs--reflecting 
some of the policies that have been seen under the Soviet Union. So I 
think that the first difference is really the severity of this, which 
takes a higher level than in other countries, with the exception maybe 
of Turkmenistan.
    Second, as Dr. Collins mentioned in her opening statement, 
Tajikistan, until 2015, was the only country in the region with a legal 
faith-based party--i.e., the Islamic Renaissance Party of Tajikistan, 
that emerged in the south of the country in the 1970s, became an 
officially registered party right before the fall of the Soviet Union 
in 1990, and participated on the opposition side during the civil war. 
The party was legalized as part of the peace deal of 1997 and held a 
sort of symbolic two seats in the country's 63-seat assembly. But 
particularly since 2010, the party came under pressure and ended up 
being declared a terrorist organization. And I can address during the 
Q&A the effects of that, but obviously the closure of the party which 
had--or claimed to have--at its height 50,000 members, was viewed many 
observers, including myself, as potentially detrimental to countering 
violent extremism in the country.
    Third, as Dr. Collins mentioned, Tajikistan within the region is 
the highest per capita exporter of foreign fighters. The latest figures 
from a few weeks ago from the security services--which, again, need to 
be taken with a pinch of salt as Dr. Nasrutdinov has said--are 1,900 
fighters. That would be a significant portion from the 3,000-5,000 or 
4,000-6,000 fighters that are coming from the region. So, I think if 
Kyrgyzstan is maybe the best example of sort of model of state 
secularism in the region, Tajikistan is potentially the worst, maybe 
with Turkmenistan.
    So is counterextremism productive? I think my research, along with 
Dr. Nasrutdinov's research and Dr. Collins' research, has indicated 
that grievances do play a key role. And I think not only in the 
messaging that extremist groups have been portraying the governments of 
the region as an enemy of Islam by citing specific examples of their 
policies: closing mosques and preventing men from growing beards, 
policies against the hijab, et cetera. These have definitely been 
picked up by extremist organizations, and specific experiences of 
grievances does seem to be one of the only underlying conclusions for 
much of the research on extremist recruiting within the region; the 
other being the importance of social networks, both personal and 
online, in sort of drawing people into these extremist organizations.
    But I think another aspect in which state secularism in the region 
can be counterproductive is its sort of logic. Given that it's highly 
authoritarian, it's creating this false binary in many ways between a 
good, state-sponsored Islam that's local, and a bad foreign extremist 
Islam, that should be repressed. Its very logic is authoritarian, and 
it really does stymie critical thinking amongst the citizenry. This is 
part of a broader politics of authoritarianism within the region. The 
main effect of this authoritarianism is to try and create docile 
citizens who are secular, apolitical, and as Dr. Nasrutdinov mentioned, 
not only apolitical, but also potentially even anti-political who view 
politics, particularly when mixed with religion, as being a 
particularly dangerous thing. The governments of the region point to 
the Arab Spring as an example of this.
    And effectively, what's being created are citizens--young people in 
particular, who form huge segments of society within the region--who 
lack critical thinking skills and lack a critical and deep 
understanding of religion. Some of the examples from my research, 
particularly amongst Tajik labor migrants in Russia in 2014 and 2015, 
which was the height of the recruitment drive by Islamic State and 
other terrorist organizations in Syria, indicated that it's often these 
informal, community-based approaches that are much more effective in 
countering extremism than the heavy-handed approaches of the 
government.
    One example from a number from my sort of fieldwork, particularly 
in 2015, is Sadriddin. He came to Russia, I think, in 2013. He was a 
young labor migrant, had few opportunities in his home village in the 
south of Tajikistan, had a very limited knowledge of religion. He 
didn't pray growing up; didn't particularly take an interest in 
religion. But eventually in Moscow, he came under the influence of 
Islamic State recruiters who began to draw him into the fold, talking 
about the need for the religious obligation to conduct jihad. 
Eventually Abdulrahmon, who was one of my interlocutors in my research, 
invited him to dinner.
    Abdulrahmon was a Koran reader from the west of Tajikistan who 
studied in a madrasa in Pakistan and held an informal prayer group 
within the bazaar where he worked on the edge of Moscow. And he staged 
an intervention by pointing to specific examples within the Koran, the 
Hadith, that demonstrated that violence is only justified in very 
specific circumstances, and the contemporary circumstances we're seeing 
now perhaps do not justify violence. And eventually, through this 
process of communal intervention, he was brought away from that path, 
and decided not to join an extremist group.
    So speaking to Nathaniel's original question of pointing to 
policies and different ways things could be done differently, this 
focus on the community level and using communities as a tool not of 
authoritarian consolidation, as the presidents tend to use them, but as 
a tool in genuinely countering extremism, is something that would be 
very productive, along with trying to create citizens who can actually 
think critically about the simplistic messaging that they're getting 
from these extremist organizations.
    Mr. Hurd. Thank you. We'll now move into a period of discussion. 
It'll be a mixture of our panelists having the opportunity to respond 
to each other, to some of the points that have been made, some of the 
questions that have been raised. Everett and I will also have some 
questions for the panelists. And then we'll open it up to the audience. 
We'll start with those of you that are here in the room, and then we'll 
move to our Facebook viewers. So those of you that are watching online 
can type your questions there.
    I'll start with Dr. Collins, whether or not you have any sort of 
initial responses to some of the points that were raised by Dr. 
Nasrutdinov.
    Dr. Collins. Thank you. Thank you for your remarks, Dr. 
Nasrutdinov. I don't think I fundamentally disagree with anything you 
said. As I mentioned at the beginning, I was speaking broadly about 
major trends and problems in the region. Kyrgyzstan is a tough case to 
characterize, I think because there's a lot of regional variation 
within the country. So, the situation in the south of the country--in 
Osh, in Kara-Suu, in Jalal-Abad, Batken--is significantly worse than 
the situation in the north of the country. As you agree, the situation 
for ethnic Uzbeks is significantly worse along a number of dimensions, 
including ethnic repression and exclusion, and problems with the 
largely Kyrgyz police force and the ethnic Kyrgyz-dominated government 
in the south of the country, which the north of the country has 
problems controlling.
    The labor migrant phenomenon is largest in the south of the 
country. Remittances are highest for Osh and Jalal-Abad in the southern 
regions of the country, making that particular population the most 
vulnerable, whether they're in Moscow, or St. Petersburg, or 
Kazakhstan, or Turkey, to the recruiting and calls and networks of ISIS 
and other radical groups. So, there are many reasons for the ethnic 
Uzbek population, including religious repression as well as economic 
and ethnic repression, that lead them, I think, to be more a more 
vulnerable population at the call of ISIS.
    I particularly highlight the religious phenomenon, the religious 
repression here in large part because the ethnic Uzbek population in 
the south, particularly followers of Rafiq Qori and Rashod Qori, are 
seen as Salafis. Salafis, while not banned and mistreated in the same 
way in Kyrgyzstan, are still not given the same sort of equal rights in 
Kyrgyzstan as mainstream Hanafi Islam. So, I think they face greater 
levels of persecution. And certainly, both the killing of Rafiq Qori 
and then the arrest and 10-year sentence of Rashod Qori have 
exacerbated the problem in the south of the country--ironically because 
Rashod Qori had actually openly spoken and has multiple videos out 
available on social media condemning ISIS. So he's a Salafist on the 
one hand, but on the other hand he has very specifically called on this 
following not to join ISIS.
    Just a couple of other points--I think we all agree that the 
numbers, in terms of those who have actually gone to Syria as foreign 
fighters, are difficult to pin down. Certainly 1,300 is not a hard 
number--it's the number that I draw from the Soufan Group. I think to 
some extent it's corroborated by media reports by Radio Free Europe's 
data. And they've found similar disparities in terms of ethnic Uzbeks 
versus ethnic Kyrgyz who have joined, also primarily from the south of 
the country, facing these broader issues of religious and political and 
economic injustice, like corruption.
    The one other element that I would mention that I think gives some 
credence to the numbers is that the largely ethnic Uzbek battalions 
that have been fighting, and continue to be located in Syria today, the 
Imam Bukhari Battalion and Tawhid wal Jihad Battalion, are led by 
ethnic Uzbeks, one from southern Kyrgyzstan originally. They put out 
prolific media-social media propaganda on various social media 
channels--whether it's Telegram, or YouTube, or Turkish social media 
platforms. They use those platforms to disseminate their message, 
largely in the Uzbek language, and to some extent as well in Russian. 
This gives some credence to the fact that they're drawing on those 
networks in particular, but I agree that the numbers are problematic, 
and we should not take the regime's numbers without questioning them.
    Mr. Hurd. Dr. Nasrutdinov, do you want to add anything?
    Dr. Nasrutdinov. Well, I agree with Dr. Collins. And, again, I was 
not critical of the points that you were making. I was suggesting that 
we should take a bit more nuanced approach to this. The situation with 
the Uzbeks in the south of the country, as I said, right until now 
remains very, very problematic, and it is a major issue. But there are 
issues that the grievances of the Uzbeks might have developed due to 
this very difficult situation, which might be one of the major factors 
contributing to their vulnerability to radicalization.
    There is no equal sign, between the two. This still needs further 
and deeper exploration, because what we are doing right here, pointing 
a finger at the very specific ethnic group without really strong 
evidence and without deep discussion, can have consequences for the 
group itself. This is the only thing that I've been pointing out--that 
we have to take a little bit more care and consideration. That's all.
    Thank you.
    Mr. Hurd. Before I initiate our moderator questions, were there any 
other points that were raised by fellow panelists that any of you want 
to respond to?
    All right. I'll start our line of questioning by focusing on the 
topic of secularism. And it's something that several of you have 
already alluded to. In particular, government campaigns against or 
forcible removal of visible signs of piety--the hijab and beards--would 
be two evident examples of that. Debates about secularism, what it is, 
how it should be manifested in government policy, law, regulation, 
practice, is not something that's unique to Central Asia, of course. 
We're having debates and discussions about that in North America and in 
Western Europe. I immediately thought of the French amendment to its 
code of education back in 2004. The key line there was in public 
primary schools, middle schools, and high schools, the wearing of 
symbols or clothing by which students ostensibly manifest a religious 
affiliation is forbidden, which sounds more akin to what we've seen in 
some of the Central Asian countries.
    Two initial questions for all of you: Is there a kind of secularism 
that would be compliant with the international obligations that the 
Central Asian countries have made on religious freedom that might also 
match the Central Asian context? And second, as you look more globally, 
more broadly, are there models of secularism that you would commend to 
the consideration to the governments of Central Asia?
    Dr. Lemon. I guess I can take that one. No. I think the form of 
secularism we see in Central Asia is a more extreme version of laicite, 
as you say, the French form of secularism. It's been called by Ahmet 
Kuru a sort of assertive secularism whereby the state sits above 
religion and the state has the right to intervene in religious affairs, 
including personal and private settings, as well as public settings. So 
that's maybe a more extreme version than the sort of French model that 
talks about religious symbols in public places. So, it's a more extreme 
version of that.
    I'm not an expert on different models of secularism outside of 
Central Asia, but I think some sort of model by which religion is 
afforded or religious freedom is tolerated--the actual words of the 
constitution come before the more restrictive religious laws that have 
been adopted within the countries, and that that takes precedent and 
people are able to practice religion freely in their own homes and in 
public places, would be a model that would be preferable.
    Mr. Hurd. Dr. Collins? Dr. Nasrutdinov?
    Dr. Collins. I actually think that the model that Kyrgyzstan had 
more or less adopted prior to the 2008 religion law was actually 
working pretty well. There was an enormous amount of pluralism within 
the country. Salafis, Tablighi Jamaat, Shia, multiple different 
Christian groups participated publicly, and were able to freely 
worship. They were not facing the type of fear and restrictions and 
repression that they have subsequently, which was initiated by the 
Bakiyev regime, but has been continued despite the change in government 
after 2010, and arguably has actually worsened, particularly in the 
south of the country, as we were talking about.
    This has been, of course, in the context of the growth of ISIS, 
talk about counterterrorism measures, et cetera. But, as I suggested 
before, I think the adoption of a much harsher version of secularism 
modeled on laicite, but also modeled on Soviet ideas of atheism, in 
fact has exacerbated the problem with religious extremism within 
Kyrgyzstan. If Kyrgyzstan were to go back 10 years, I think they 
actually had a relatively good model not just for Kyrgyzstan, but for 
the region more generally.
    Mr. Price. Dr. Nasrutdinov, I'd like to hear your thoughts on this 
as well. But if I can just add one other question that I'd appreciate 
your help clarifying is, what exactly--and you alluded to it a little 
bit, but I was wondering if you could delve into it a little bit more--
what prompted that change in the policy from I think it was 2006-2008 
and then afterwards? And then you also said that it flipped back and 
headed, again, in a little bit more of a positive direction after 2010. 
What accounts for those changes back and forwards in terms of the 
trajectory?
    Dr. Nasrutdinov. Okay. I think when we talk about Central Asia and 
we talk about the states, we cannot talk about the states in isolation 
from the discussion of specific leaders of the countries. This is all 
about personalities, including what is happening in Uzbekistan. This 
slightly positive change that is developing, again, is a reflection of 
a change in the personality of the leadership.
    And, what has been happening in Kyrgyzstan in regard to religious 
freedom is exactly that in many ways. Askar Akayev, the first 
president, was very open-minded, democratic, and really didn't care 
about religion at all, so this was not on his agenda. That's why so 
many religious communities, both Muslim and Christian and other 
communities, were able to develop and flourish in such large numbers.
    Then Bakiyev's regime really was the first regime that actually 
started repression by the government of religion. And the first law 
that Bakiyev introduced was the law on religious freedom, which in fact 
was actually in many ways limiting the freedoms of citizens. But again, 
we see that when Atambayev came to power, Roza Otunbayeva didn't do 
much. When Atambayev came to power, in the first couple of years he was 
still trying to figure out what to do. One kind of positive thing that 
can be said about Atambayev was that he was open to the discussion with 
the expert community. He had the Security Council, and he created a 
number of groups of experts who had been working on these issues and 
have been advising him on these specific issues.
    Particularly as a result of this collaboration, there was this 
positive change that began evolving in 2013 and 2014. As I said, the 
formal State Committee on Religious Affairs director was removed and 
replaced, and the mufti was replaced, and the two started collaborating 
much better. And then what we see, while this positive change was still 
evolving, Atambayev was quite critical of the hijabs and Muslim attire, 
and he produced quite a lot of negative remarks in regard to religion.
    Now the new president, Sooronbay Jeenbekov, is believed to be 
himself a practicing Muslim who prays five times a day and generally 
supports Islamic communities in many ways. He has organized a number of 
interesting conferences and invited a number of interesting 
international experts and speakers to talk about these issues. At the 
moment we really are seeing very little pressure, and he's also a 
distant relative of our present mufti, which is a big thing in Central 
Asia. So, at the moment, we see this positive change.
    One last thing I would like to mention besides these personality 
styles at the top level, is the important role played by civil society. 
For example, one of the main groups that lobbied and very actively 
promoted the right of girls to wear hijab in school is the group called 
Mutakalim. This is a female organization that fights for the right of 
Muslim women. I can suggest that whatever has been achieved in regard 
to this freedom--and Kyrgyzstan today is the only country in Central 
Asia which allows girls to wear hijab to schools, right; no other 
country allows that--is not the product of the specific politicians or 
the president, or even the muftiate. It is the outcome of the many 
years of struggle that this feminist organization put into this. They 
took the minister of education to court a number of times. They have 
protested in front of the Ministry of Education. The civil society has 
contributed quite a lot to that kind of form of secularism, which is a 
bit distant from French laicite but closer to a more American version 
of secularism.
    Mr. Hurd. Underpinning a lot of what we've discussed already today 
is the fundamental question of meaning. So people, whether they're in 
Central Asia or Western Europe or elsewhere, have big existential 
questions once they hit the age of reason.
    This intersects, I think, with two things. One, state control or 
branded Islam, where the imams are state funded, state trained, state 
approved, where the content of their sermons are in some cases 
literally provided by the governments. So what people are receiving 
when they go to the mosque is, as some of you already noted, 
effectively government propaganda. It doesn't have a particularly 
strong religious character and doesn't necessarily address these big 
existential questions that people have about themselves and about life.
    This also brings us to education, and all of you have touched on 
the lack of healthy, vibrant religious education in the countries of 
Central Asia. Broadly, what would healthy religious education look like 
in the Central Asian context? What would it look like at the private 
level? What should the government's relationship be to it?
    And then a version of the question that I asked earlier: Are there 
models, including outside of Central Asia, where you think there are 
large Muslim communities and the religious education looks like the 
kind of thing that you would hope to be replicated, or at least 
considered, in Central Asia?
    And a third question is: Can you perhaps say a bit more about the 
lack of substance that people are receiving at school, that what 
they're receiving at mosque in response to these big existential 
questions they have, which in turn makes them perhaps more vulnerable, 
more susceptible to the allure of what they might encounter from more 
extremist individuals or groups, particularly when they travel abroad 
for work to places like Russia?
    This is a question for all the panelists.
    Dr. Lemon. Three questions for each. I guess I'll go with the first 
and the third.
    So, as I mentioned, before 2010 I think there were almost 3,000 
Tajiks studying Islam abroad, and there are a number of madrasas 
operating in the country, and there still is an Islamic university I 
think with 2,000 places. There's certainly much more demand for Islamic 
education than there is supply. There are still, from my understanding 
and from some reports, some sort of unofficial underground--although 
that's a misleading term that dates back to the Soviet Union--there are 
still unofficial lessons, and, certainly in some villages within the 
country, the government views that as a potential security threat 
within Tajikistan.
    I think a model would be, obviously, providing more Islamic 
education, providing some--I know that in the past they introduced in 
high school, I guess middle school--some sort of theology and Islamic 
morality classes. That may be a good opportunity. But as I said, 
speaking to the third question, education within Central Asia in 
general, Tajikistan in particular, is about producing citizens who are 
not critical and will not resist or question authority and power. I 
think there's a genuine view that Islam and Islamic morality poses a 
threat to regime security, so I think it's trying to persuade the 
government that Islam isn't necessarily anti-state and it's not 
necessarily anti-status quo; and that they can loosen the reins on 
religion and promote religious education, and it doesn't ipso facto 
mean that their power will be threatened. In fact, if they opened up to 
a more pluralist system like Kyrgyzstan has, it would reduce the 
pressure and reduce some of the injustice that's existing within 
society, and maybe even allow Islamic civil society to develop and take 
on some of the roles that the state's incapable of doing as we've seen 
sort of through processes like kashar in Kyrgyzstan and is already 
existing in Tajikistan.
    Dr. Nasrutdinov. Yes, and in Kyrgyzstan the major problem faced by 
students of madrasas is the lack of certification and licensing. 
Because Kyrgyzstan is a secular country, the Ministry of Education 
refuses to give licenses to religious institutions. What we have as a 
result is that students usually go to madrasas after completing the 
ninth grade of school. Then, having completed the degree at the 
madrasa, they are not able to obtain a certificate of secondary 
education, and thus they cannot continue their education into the 
higher education institutions. This has been a problem for all madrasa 
graduates. And the madrasas themselves are open to collaboration: They 
want to introduce secular subjects into their curriculum just to get 
that secondary education certificate for their own graduates.
    Yet, the state is still kind of lagging behind on these issues and 
not really working properly. So far only one institution has been 
granted a license: the Islamic University of Kyrgyzstan, one of the 
eight higher education madrasas. There is one more pilot project that 
was introduced by the State Committee on Religious Affairs, and that is 
kind of a theology college on the basis of one of the universities, 
where students who obtain a degree in religion also obtain a 
certificate in secondary education. I think resolving this issue would 
help a lot the graduates of Islamic educational institutions to 
integrate better into life, and to have both professional careers and 
religious careers developed together, where they would not be isolated 
only to religious life.
    In regard to introducing religious subjects into secular schools, 
this also has been on agenda. This is already the second year that the 
Ministry of Education is piloting a project on introducing a subject 
called the history of world religion into the curriculum of regular 
secular schools. The results are yet to be evaluated and seen, but 
there is this initiative, and hopefully it will take proper ground.
    Dr. Collins. Thank you for pointing to that issue--religious 
education, as well as education more broadly, I think is an enormous 
challenge for the Central Asian states to deal with. In approximately a 
hundred focus groups that my Central Asian colleagues and I did across 
the region over the course of several years, the vast, vast majority of 
participants pointed to a desire for any religious education, better 
religious education, and religious education within the framework of an 
otherwise-secular school system. So, they're not talking about a desire 
to send their children just to madrasas, something along the lines of 
what we've seen in Pakistan or Afghanistan emerge over the past several 
decades. They want their children to get basic theological instruction 
within the context of the school system.
    Given that there are no religious schools that also teach secular 
subjects for the most part across the region--again, Kyrgyzstan has a 
few minor exceptions, but across the region it's something that's 
broadly banned and seen as threatening to the governments of the 
region--I think that is a key area in which we can think about looking 
at models elsewhere. And I actually would propose the U.S. as a 
relatively good model in this respect. Religious education, religious 
schools, religious institutions that run, own, and teach religion as a 
theology together with the whole range of secular subjects have been 
something that have been part of the religious and civil system in the 
United States since our founding.
    The Catholic school system, of which I'm a product, is actually a 
quite healthy example in this regard. And I think it would be very 
interesting to see Central Asians and directors of Central Asian 
schools come and have a dialog with teachers and administrators in the 
Catholic school system here to see how it works. Ninety percent of the 
school day goes toward secular subjects, but religion is also taught as 
a theology.
    And on that point, I just want to emphasize that what people are 
not looking for is for their kids to go to study Islam in the secular 
state-run, state-controlled school system as a science, as the study of 
atheism in the way that it was during the Soviet period, in the way 
that quite frankly still is across much of the region. To the extent 
that religion has been introduced in the school system, it's been 
introduced in this very Soviet-style fashion. People want their kids to 
learn morality and they want them to learn their beliefs, but they want 
them to learn those beliefs within a sort of healthy, otherwise secular 
context. That's what the vast majority of the population I think wants.
    Mr. Hurd. I think just another example from the U.S. system--you 
mentioned the Catholic school system, but in addition there are 
families here in the United States that send their children to public 
schools, but then their own religious community has something set up to 
sort of supplement that. So, they're certainly getting religious 
education at home, but they're also getting it from a community entity 
that supplements whatever it is that they're receiving in the public 
school system.
    Dr. Collins. And it's not encumbered by all these restrictions that 
have been put in place across Central Asia in terms of how you have to 
get permission on who can teach, and whether or not teaching religion 
through the churches or through the mosques or in the home is actually 
legal or illegal. So, at the current moment across much of the region 
for one to teach--to send one to a grandparent or a neighbor or an 
atinga is actually extraordinarily risky when most of us would agree 
that that's just sort of a normal, healthy part of the moral upbringing 
of a child.
    Mr. Price. I think all of you have talked about the post-Soviet 
legacy that heavily influences the state's approach to religion. I was 
wondering what you make of the generational shift that seems to be 
impacting all post-Soviet republics these days of a generation of kids 
who are now adults who have grown up without any living memory of the 
Soviet Union. Is that impacting attitudes toward religion at the 
popular level? And will that have an impact on the way that government 
and administration relates to those issues?
    Dr. Lemon. As an anecdote, I was at a wedding in 2013 in the Vanj 
mountainous district in Tajikistan, and there were separate tables 
between the young guys, many of whom were labor migrants. They were 
back from the summer, and they would not touch alcohol, and they were 
on one table. Then there were the sort of bad young guys, as they 
labeled them, who sat next to them, and they were all drinking. And 
then there was the sort of old Soviet generation sitting on the third 
table, and they were, again, drinking.
    And I think that certainly that's an anecdote, but we are seeing 
especially among the younger generation an increasing interest in 
religion. I think that's, in the case of Kyrgyzstan and Tajikistan in 
particular, mediated through these processes of going to Russia, where 
ironically, religion is more free and they are able to meet practicing 
Muslims from a broader community, and they're able to with fewer risks 
either register for official religious training in Russia or convene 
informal prayer groups, a number of which I attended in Moscow in 2014 
and 2015.
    I think there is this societal Islamization. From the view of the 
governments this is inherently political, and it's linked to a 
political radicalization and seen as a threat. But I think there is a 
genuine demand amongst the population, as shown through Dr. Collins' 
surveys in religious education, in morality. And that is in part 
mediated by this move from a Soviet to a post-Soviet system.
    Dr. Nasrutdinov. I totally agree with Dr. Lemon. For many purposes 
of convenience, I tend to oversimplify matters by categorizing this 
sort of debate into difference between several generations. And again, 
I think this is like oversimplification, but still it's easier to 
perceive a larger picture this way.
    I distinguish the older Soviet generation--this would be the 
generation of my grandfathers who were born before the Soviet Union or 
in the early Soviet years when religion was still free, right--they 
were the ones who, like my grandfather, went to madrasa, learned to 
read and write in Arabic, memorized a portion of Koran, before the 
things going bad in 1920s and 1930s and religion became prohibited. So 
the elderly community were among the first ones who in the 1990s, as 
soon as religious freedom returned, went back to their religious 
practices. For example, my grandfather became a mullah, imam for the 
Tatar community in the south in Kyrgyzstan.
    And then the second generation, I call them the Soviet generation. 
This is the generation of my parents. These are the ones who were born, 
brought up, raised, and matured into this Soviet atheist, anti-
religious propaganda. They were already in their 40s and 50s when the 
Soviet Union broke up, and having spent their entire life believing 
that religion is a prejudice and a fairy tale--something which is but a 
negative--they were among the ones who had the most difficult time 
returning to religion, or going to religion. This is the generation 
that is really missing in churches and in the mosque nowadays.
    And then the third generation--this is what I refer to myself--is a 
transitional generation. We went to school in the Soviet time, but then 
we're still young enough and still open to ideas when the Soviet Union 
broke up--I was 17. And many in my generation came to religion via a 
detour of the bad 1990s with the drugs and alcohol addiction, criminal 
engagement, et cetera. So for many of representative of my generation, 
those who survived 1990s, right, they--for them religion was a 
salvation from all these difficult and bad habits.
    And then you have the independent generation. These are the kids 
who grew up in the 1990s or late 1980s, so the ones who were not 
brainwashed with the Soviet propaganda at all. So for them religion was 
really their choice. The parents did not impose it on them, but it was 
one of many choices in regard to this new kind of forms of identities 
that suddenly became available after the breakup of the Soviet Union. 
For them, they see religion as a choice and they respect it as a choice 
of others.
    And then you have the new Millennials--my children. For my children 
I try to teach them and I try to raise them with the sort of religious 
perspective on life.
    It's kind of a cycle that goes back in some ways is the 
observations. That's my perspective.
    Mr. Price. Dr. Collins, maybe you could also address from the 
bureaucratic standpoint how entrenched these practices are from the 
Soviet Union's legacy and whether they're subject to change with kind 
of generational evolution.
    Dr. Collins. Yes, thank you.
    Well, it's an interesting question. Nathaniel and I were having a 
conversation earlier about some comments that are still made by the 
older generation who tend to still dominate amongst government elites 
and within the bureaucracy. This mentality of Soviet atheism and fear 
and suspicion of religion, I think, still pervades those who are in 
positions of power. And that, I think, continues to influence policies 
such as Tajikistan's sort of public campaign against the hijab. You see 
a milder version of this taking place in Kyrgyzstan, where government 
elites seem to feel the need to speak out against the Arab version of 
the hijab invading our country versus the sort of traditional Islam and 
the traditional way that Kyrgyz women are supposed to dress. These 
statements coming from government elites, I think, reflect that very 
Soviet sort of bureaucratic atheist understanding and suspicion of what 
religion is actually all about.
    As both the previous speakers have said, there is this growing gap 
between the elites and the youth, particularly those who were born in 
the post-Soviet era. Something that's not always taken into account in 
much of what is written about Islam in the region, is that we now have 
an entire generation who was born after the Soviet Union collapsed. So 
we've seen significant generational turnover in terms of youth's views 
about Islam, about politics, and about corruption. It's the younger 
generation who've grown up entirely in a system where the educational 
system is pervaded by corruption, and I think that's across the 
region--one of the issues where there isn't a whole lot of variation. 
That pervades how they view the world. I think, not for everybody, 
certainly, but for quite a number of people, it causes them to see 
Islam in some way as a solution to a lot of their problems, as a 
solution to injustice, and as a solution to political/economic 
corruption and repression of many sorts.
    Another point which I would emphasize that Dr. Nasrutdinov 
mentioned earlier is the access to social media. This is, again, more 
so the case in Kyrgyzstan than in some of the other republics, where 
access to social media is higher. But youth, since they can't receive 
religious education or there's not enough access to sort of normal 
religious education, they're going online. This is happening across the 
region. It's happening in Russia. It's happening in Azerbaijan. So, to 
get their questions about Islam answered, they get online and they 
listen to various forms from the moderate to the extreme that are 
posted online in their languages--in Russian and Kyrgyz and 
predominantly in Uzbek. And this is affecting how they're viewing the 
world, how they're viewing their social and political problems, and how 
they're coming to view--at least a certain percentage of them--religion 
as a solution to that.
    Again, I don't think the youth perspective that religion should be 
part of the public space and civil society is not something that should 
be seen necessarily as threatening. It can evolve in a healthy and 
pluralist way, as it had in Kyrgyzstan prior to the Bakiyev 
administration and their adoption of a new law on religion. But 
unfortunately, by government elites it is still seen as something 
that's very threatening that needs to be controlled and repressed.
    Mr. Hurd. Thank you.
    Everett and I have many more questions and I sure could be here all 
day with a fruitful conversation with our panelists, but we want to 
make sure that we give our audience members an opportunity to ask 
questions. I have a colleague here with a mic. If you could tell us 
your name and affiliation, if you have one, and then please ask your 
question. Thank you.
    Questioner. Thanks. I'm Alex Tiersky, also of the U.S. Helsinki 
Commission.
    As the policy advisor with responsibility for counterterrorism, I 
want to tell you how instructive I found this discussion. I've really 
learned a tremendous amount from your presentations and the discussion. 
Thank you very much.
    I have two questions. The first actually derives from the set of 
questions that my colleague Everett just asked you about the Soviet 
legacy that we've talked about for a while. What we haven't talked 
about is any kind of active Russian engagement with the elites in 
Central Asia. Obviously, the Soviet legacy is one thing, but the 
Kremlin seeks to take a mantle on counterterrorism internationally, and 
I imagine that's the case in Central Asia as well. I'd love to hear 
from you a few thoughts on the Kremlin's perspective on sharing what we 
might call worst practices in the regards of this conversation.
    The second question I would like to ask is, you've made it quite 
clear that from the expert perspective that the governmental view or 
the governmental repression of the free practice of Islam and the free 
practice of religion in Central Asia is counterproductive from a 
counterextremism perspective. But what none of you have said is whether 
the governments believe that they are doing something that is being 
effective or not; in other words, if they think they're winning and 
pushing extremism beyond their borders, it makes it much more difficult 
for us to convince them to take a different approach.
    Thank you.
    Dr. Lemon. Well, on Russia, obviously, there's a shared 
understanding of this problem, I think we can say, between the security 
services in particular. And they're the ones, really, who are often 
driving the more interventionist policies, certainly within the Tajik 
case, along with the Ministry of Internal Affairs and, obviously, 
Committee on Religious Affairs and other institutions. I think there's 
a shared understanding of this problem: there's a good and a bad Islam, 
and Islam is something that needs to be regulated because it, like 
other parts of civil society, poses a threat to regime security.
    But I think there's also a practical dimension to this, and this 
operates both multilaterally and bilaterally, formally and informally. 
Through things like the RATS--the Regional Anti-Terrorist Structure--or 
through the SCO [Shanghai Cooperation Organisation], which is based in 
Tashkent. There's a CIS [commonwealth of independent states] 
counterterrorism center, and they share lists. They're like a sort of 
Interpol-lite in that they have lists of wanted extremists and 
extremist groups, and they participate in extraditions both formally 
and informally of accused extremists, many of whom are opposition 
members residing within different republics within the region. I think 
there's certainly cooperation there.
    And the second question was on counterextremism as being 
counterproductive?
    Questioner. Whether the regimes believe that it is.
    Dr. Lemon. Oh, whether the regimes believe it. Well, in my research 
I find it very difficult to have meetings, and I had some very early on 
in 2010 with some people from certain structures within the Tajik 
Government on this issue. I think it's difficult to glean intentions 
here. We all want to say that there's nefarious intent. It's difficult 
to say and disprove whether these people genuinely believe what they're 
doing or not. I think, from my conversations with various Tajik 
officials through the years, there is a genuine belief that Islam does 
pose a threat and that the steps they're taking--whilst they may not be 
ideal--are the best way to sort of keep a lid on the problem.
    Dr. Nasrutdinov. Perhaps I could answer the two questions together 
on the example of Kyrgyzstan.
    All the repressive politics, particularly in regard to banning 
specific religious groups, have started with Russia. Russia has been 
thoroughly open until the late 2000s, and it was in 2008 when they 
started banning basically all groups. There are only four versions of 
religion that remain: Orthodox Christianity, traditional Islam, 
Buddhism, and Judaism. Everything else was to be banned.
    Besides banning, one illustrative example is the banning of 
Tablighi Jamaat, the Southeast Asian group. Russia was the first one to 
ban it. Then it made the recommendations to the CSTO--Collective 
Security Treaty Organization--to ban them as well.
    And the first one to follow was Tajikistan. It banned them in 2009. 
Immediately on that year 60 members of the movement were arrested, and 
since then the persecution has started.
    Kazakhstan kept thinking until 2013. And after the events in Atyrau 
in 2011 they decided to ban it as well.
    Kyrgyzstan today remains the only country where Tablighi Jamaat is 
still legal. It's still withstanding the pressures from the other 
members of the CSTO, including Russia. Particularly illustrative are 
the remarks of our former President Almazbek Atambayev suggesting that 
we are keeping everything under control and at the moment, we see a 
more of a positive influence of the group rather than the negative; 
that's why we keep it legal.
    Same can be said about the Turkish groups, such as Nurcular and 
Hizmet. There is quite a lot of pressure from the Turkish Government to 
ban them after the coup attempt in Turkey. And yet, Almazbek Atambayev 
also said that we are keeping everything under control, and to the 
degree we believe that these group has more positive influence for us.
    So it's hard for me to tell for the governments of neighboring 
countries, but at least in Kyrgyzstan the government is kind of 
listening. For example, on the questions of Tablighi Jamaat, they have 
taken serious consultations with international experts including Alexey 
Malashenko, for example, and many local community experts--whereas in 
neighboring countries it's more authoritative decisionmaking as to just 
banning everything.
    One more influence that comes from Russia is through propaganda and 
media. Again, there is a specific age group, like the Soviet 
generation, like my parents--like my father, who retired 2 years ago. 
And since then he's been hooked on Russian TV and Russian propaganda 
completely. So this is the group that is brainwashed by this continuous 
Russian media and Russian propaganda, and a lot of that anti-religious 
sentiment also comes via that channel.
    Dr. Collins. I would certainly agree with all that's been said so 
far, so I won't add too much to that.
    I would note that I've had conversations with members of the State 
Committee on Religious Affairs in Kyrgyzstan for about 10 years about 
Tablighi Jamaat, and they constantly feel as though they should ban it. 
They haven't quite done it yet. They've resisted the pressure from 
Russia and across the region to brand this religious community as a 
terrorist and extremist organization, thankfully, so far.
    Jehovah's Witnesses are another example. The repression started in 
Russia, and you subsequently see the adoption of similar policies 
toward the Jehovah's Witnesses across the region. So Russia, I think, 
is a particularly nefarious influence within the sphere of religious 
affairs across the region.
    Do the governments believe they're winning? It's difficult to say. 
I strongly suspect, though, that given the changes that we are starting 
to see within the Uzbek regime, that there are at least some 
significant players as well as many of the younger generation who are 
starting to come up through the ranks within the Uzbek Government who 
were in graduate school with me in the 1990s. And they increasingly, I 
think, believe that the repressive policies of President Karimov's 
regime were, in fact, counterproductive. And it will be interesting to 
see whether or not the changes in Uzbekistan have any sort of ripple 
effect across the region.
    Mr. Price. I think that's very interesting because anecdotally I've 
certainly heard from some Uzbek interlocutors that they feel that these 
examples that people point to of Uzbek nationals who have committed 
acts of terror abroad have been radicalized while abroad in Russia and 
think that they were not radicalized within Uzbekistan, and they take 
that talking point to kind of underscore the efficacy of their domestic 
policies. But I don't know how to square that with what we've discussed 
today.
    Mr. Hurd. Yes, please.
    Questioner. Catherine Cosman, formerly Helsinki Commission a 
hundred years ago and more recently U.S. Commission on International 
Religious Freedom.
    My questions also have to do with Russia. I would not say that the 
policies of Russia toward freedom of religion are all that much better 
than that of the Central Asian countries, sadly, especially after 2014 
and that series of laws that they passed, and the types of Russian 
Orthodox radicals--I think is a fair way of characterizing them--who 
are, many of them women, in important positions of power, including, 
unfortunately, the Ministry of Education. But that's another question. 
I think Russia has a very important influence on many levels in what's 
going on in Central Asia.
    Also, vis-a-vis migrants, of course, the overall picture of their 
treatment is pretty bad, but I have heard that in some cities in some 
areas in Siberia, and oddly enough in Chechnya, there are some Uzbek 
migrants who are imam khatibs, so in other words in influential 
positions. One of Kadyrov's chief advisors on religion apparently is an 
Uzbek. Whether that's something to be proud of is another question.
    Also, because I think it's important to ask, which religious figure 
or Muslim-related religious figure in Russia is admired by the millions 
of Central Asian migrants? And I've heard, unfortunately, that it is 
Kadyrov who is the most-admired figure. I hope I'm wrong and I hope you 
can contradict me on that.
    So, in short, the picture about freedom of religion in Russia is 
very complicated. I would end my little disquisition with saying that 
we should also look at the international instruments for a good 
definition of freedom of religion; i.e., the U.N. and the OSCE. I think 
that should be mentioned, especially at a setting like this.
    Thank you.
    Mr. Hurd. Do any of the panelists want to respond?
    Dr. Lemon. No, when I said that Russia is better, I didn't mean in 
terms of the legal framework, which I agree is just as bad. I think for 
certain Central Asian migrant communities that I spent time with, 
perhaps because they were away from home communities where surveillance 
networks are very extensive--mostly informal through local mahallas and 
informants and family members even--that they felt that the state 
wasn't quite as interested, perhaps, in them, and sort of as pervasive 
in its sort of surveillance networks. But I certainly wouldn't say that 
Russia should be upheld as a beacon of religious freedom. That would 
not be the case.
    In terms of who the Tajik migrants who I spent time with admire, 
he's not an Islamic leader, but Putin himself is obviously revered 
amongst many of the migrant community as the archetypal strongman. I 
think Kadyrov--there's a lot of sympathy amongst the migrants who I 
know toward him as being, again, an effective leader who's brought 
stability to Chechnya.
    I think within my experience within Moscow there's certainly a 
tension between the mosques and the muftiate, which is Tatar-led, 
although there are some North Caucasians in the administration, and the 
Central Asian migrant communities. I know a lot of people were turned 
away or no longer enjoyed attending or wanted to attend the very few 
mosques in Moscow because often parts of the service were in Tatar and 
they didn't understand. Some of it was in Russian. But they preferred 
often to have their own informal prayer groups, as opposed to going to 
the official institutions that they viewed as being less welcoming to 
them.
    Dr. Nasrutdinov. In regard to Kyrgyz practicing Muslim population, 
I think the religious authority is constructed along ethnic lines, 
significantly. So the most popular and famous religious scholars are 
all ethnic Kyrgyz. The most well-known scholar is Chubak Ajy Jalilov, 
who is a former mufti, and he is followed by Abduskhonar Matev, who is 
a former rector of the Kyrgyz Islamic University. The two are very 
active inside Kyrgyzstan. They are very active with lectures in their 
own mosques and in other mosques, and produce a lot of visual materials 
on CDs and online. They are also very popular among Kyrgyz migrants in 
Russia, and they regularly travel. The muftiate organizes trips for 
them, and you have gatherings in City Crocus Hall in Moscow where it 
brings together up to 6,000 Kyrgyz labor migrants just to listen to the 
two.
    Surprisingly, another interesting figure who is popular in 
Kyrgyzstan is Shamil Alyautdinov, who is a Tatar modern Islamic scholar 
from Russia. He's been coming to Kyrgyzstan with lectures almost every 
year, he and his wife. She is also quite popular among the female 
community particularly. They gather large crowds, and have a fairly 
strong fellowship in the country.
    Dr. Collins. Yes, I certainly agree. The situation with Russia is 
very complicated, and we're talking about millions of migrants who are 
living there. They're broken into different ethnic communities. They 
live in different cities of Russia. Some of them have greater access to 
internet than others. And even within Central Asia itself, it's 
interesting that so many people express both popular views of Russia, 
in large part based on the Russian media that they have access to, and 
correspondingly very negative views of the United States, increasingly 
so, over the past 10 to 20 years.
    At the same time, they also have expressed in both focus groups as 
well as my survey research, a desire to introduce various elements of 
Sharia into the legal system, or to have some sort of Muslim democracy, 
or to model their system on Saudi Arabia and the Emirates, which they 
see as pure and less corrupt and a good Islamic form of life.
    So those views often seem very contradictory: how can one admire 
Putin and at the same time want a government based on what they see as 
the Arab model, which, of course, many people have not had any 
particular experience with? So it is certainly something very sort of 
difficult to pin down.
    I agree with the comments that the other panelists have made. I 
just want to address your question as well, Everett, about the Uzbek 
Government's talking points. I think those are the talking points 
across the region as well, that to date we've kept the lid on extremism 
within our country by the policies that we've had in place over the 
past decade to two to three decades.
    I'm not sure that these governments are quite as naive as all that. 
Certainly there're some people who firmly believe in repression. But I 
do think that there are others--and again, it's probably the younger 
generation--who are attuned to what's being disseminated in social 
media, whether it's Gulmurod Khalimov's video where he defects from the 
OMON [Special Purpose Police Unit] in Tajikistan and says that one of 
the reasons of his defection is because of the abuse and torture of 
Muslims and religious repression in Tajikistan. That's central to the 
reason that he left Tajikistan and joined ISIS.
    Following his departure, you start to see the numbers of Tajiks 
peaking as fighters in Syria. Certainly, dozens and dozens and dozens 
of videos that are put out by other primarily ethnic Uzbek, or mixed 
ethnically, but led by ethnic Uzbeks in Syria also continually harp on 
that same message. It's not all about Syria. It's about both Syria as 
well as the religious repression and the situation for Muslims at home.
    So, it's hard for me to believe that the Central Asian elites are 
completely naive to the problems that have been created by religious 
repression at home. I would hope that that is underlying some of the 
changes and push for reform within Uzbekistan today. Tajikistan might 
be another matter. I'm not sure that they're convinced yet.
    Mr. Hurd. Do we have any more questions from the audience?
    Questioner. Jeff Bell, National Endowment for Democracy.
    I was very interested to hear Professor Nasrutdinov talk about the 
role civil society has played in encouraging better attitudes toward 
religious freedom in Kyrgyzstan. And I would just be curious to hear if 
the panel could talk about perhaps what both religious and secular 
civil society could be doing better or is doing well in all the 
countries.
    I understand, of course in Tajikistan there's very little leeway to 
do much. But it would still be interesting to hear.
    Thank you.
    Dr. Nasrutdinov. Well, I think the question was addressed mostly to 
my colleagues, like whether this is happening also in other countries.
    Dr. Lemon. It was also to you about what civil society has done.
    Dr. Nasrutdinov. Oh, civil society. I'll give you specific 
examples.
    For example, one of the leaders of this group, Mutakalim, the 
leader is Jamal Frontbek-Kyzy. What she did is that she, at the 
beginning, she established her organization specifically with the 
agenda of hijabs in schools and workplaces in mind. It took her 2 years 
to get it registered, through a lot of hurdles particularly even from 
the muftiate, which were making obstacles for her. Yet they succeeded.
    Since they've registered, they've been taking school directors, 
ministers of education, to court regularly, and they've provided legal 
assistance and continuously supported these cases. Over a number of 
years, this has accumulated. Eventually, there's this big story where a 
minister of education did ban hijabs completely in school. They took 
him to court. They won the case. His ban was removed. He himself was 
fired. It was 2 days ago that the law was introduced that allows girls 
to wear not a hijab, but kind of a veil.
    Another interesting case was when Jamal was invited to attend a 
U.N. meeting in Turkey. And when she was passing by customs at the 
Manas Airport in Bishkek, the customs officers asked her to remove 
hijab because on the ID, she was without hijab, and said you can remove 
it, pass it, and then put it back. And she said, no, I'm not removing 
it. So they wouldn't let her pass the customs until when she said okay, 
you're free not to let me pass, but I will make it such an 
international scandal, so you will be sorry about it.
    Eventually they did let her in. What she did, as soon as she came 
back, was she started collecting signatures, because in order to change 
the law you need to have 300,000 signatures. She collected 300,000 
signatures in the country. She initiated the law. Everybody signed 
except for one. This was a minister of international affairs--he 
categorically refused to do that.
    So she waited. And it was 2008, I think, when we had SCO meeting--
Shanghai Cooperation Organization meeting--in Bishkek, where the 
leaders of all these SCO countries were supposed to come. She made a 
call for all Muslim women to come out and block the main road from the 
airport to the city. This would be such a big scandal that everyone 
became really, really concerned. The Ministry of International Affairs 
wrote to her, saying, Okay, I will sign the paper; just call the 
meeting off. And she said, no, until I see the paper with the 
signature, I don't call it off. She receives the permission with his 
signature in the last moment, and she calls the protest off.
    This is how they've struggled--it didn't come nicely. It didn't 
come easily. These are just a couple of examples.
    Dr. Lemon. As you say, in Tajikistan the space for civil-society 
engagement in religious policy debating secularism is limited. In the 
mid-2000s, the OSCE actually sponsored this sort of religious-secular 
dialog at the time when the opposition was still legal. This was an 
ongoing series of conferences organized in Dushanbe, but also in 
Germany, between religious authorities, members of the government, 
members of the opposition, and scholars, and those sort of debates 
around policy actually took place then. That was a different time.
    Sort of moving back toward that would be certainly something that 
would be welcomed. But I think, under the current circumstances, the 
government would be reluctant. And, the only sort of civil-society 
events and programs was obviously focused on CVE and violent extremism. 
Even though, as we've mentioned, in terms of the radicalization 
process, perhaps secularism is more to blame than religion in terms of 
many of the recruits not being particularly religious before being 
recruited. That seems to be one of civil society's only in to this 
issue, but it's obviously from a negative perspective.
    Dr. Collins. I'll just add that two countries where Christian-based 
groups were actually quite active in civil society until more recent 
restrictions have gone into effect are Kyrgyzstan and Kazakhstan. And 
there you saw, over the course of the 1990s and 2000s, the 
proliferation, especially in Kazakhstan, of groups with a Christian 
basis to them, affiliated with churches or sometimes independent of 
churches, that did a whole range of basic civic activities, including 
set-up centers for individuals with drug addictions or alcohol 
addictions, for homeless women. These dealt with that whole range of 
what we would consider faith-based organizations and those sorts of 
activities until many of them started to fear new government 
restrictions on proselytism and on children participating in religious 
organizations or activities.
    There's now, I think, quite a bit of fear, particularly on the part 
of minority Christian groups, particularly Protestants--Baptists, 
evangelicals and others--in Kazakhstan, and to some extent in 
Kyrgyzstan as well, that by engaging in those sorts of activities, by 
having children present, for example, at youth camps or summer camps, 
that they will be banned by the state or sort of come under really 
quite crippling fines from the state.
    In one case in Kazakhstan, I believe it was a year or two ago, 
there were Christian women who were simply providing sort of hospice 
services. But they had Bibles present at the scene, and they were 
charged with proselytism and then were given crippling fines.
    So I think there's a failure on the part of the governments to 
realize that religious organizations, whether Christian or Muslim, can 
engage in a healthy range of civic activity that society as well as the 
state would actually benefit from.
    Dr. Nasrutdinov. Let me just quickly add the clarification that the 
law that she initiated, Jamal Frontbek-Kyzy, was on allowing women to 
take photos for passport with a hijab. That was now supported.
    Mr. Hurd. Thank you for the questions and thank you for the 
interesting responses. Everett and I will ask one question apiece and 
then we'll wrap things up.
    My question is particularly for Dr. Collins and Dr. Nasrutdinov. 
We've talked about some of the differences between Kyrgyzstan and the 
rest of the region. But I'm wondering if, in the areas of law, policy 
and regulation, whether one of the primary differences is that of a 
lack of full implementation, as opposed to the actual substance of the 
law and the policy and regulation. For example, in the area of 
registration, all religious groups and religious schools are required 
to register with the State Committee on Religious Affairs.
    There are a number of groups that continue to have problems gaining 
registration--the Ahmadiyyas, Jehovah's Witnesses, et cetera. I'm 
wondering whether or not you think, at least at the level of sort of 
law in particular, it's more a matter of the government just making a 
decision to not as fully and comprehensively apply the law as in some 
other countries, as opposed to the law itself.
    Dr. Nasrutdinov. Well, in case of Kyrgyzstan, the latest amendment 
to the law on religious freedom was in regard to proselytization in 
public spaces, which is, I think, now almost supported and passed 
through the parliament, which bans proselytization or any kind of 
religious propaganda outside in the street, at houses, and in public 
places. What is interesting is that in the informal discussions that we 
had with the State Committee on Religious Affairs, we as an expert 
community always were against this kind of amendment, and we battled. 
We have discussed this with the state committee on a number of forums.
    One of the informal kind of justifications that the members of the 
committee gave is that this is really a law that's supposed to work 
against conversion. They see conversion from Islam to Christianity as 
one of the major issues, and they see these leading to kind of social 
conflicts evolving at the level of the village, community, and even 
families. This is how they perceive the conversion from Islam to 
Christianity.
    Therefore, they suggested this law is mostly targeting specifically 
groups like Jehovah's Witnesses, who knock the doors and proselytize 
actively on staircases. But while suggesting that this is against 
Christian groups, it is also affecting Muslim groups such as Tablighi 
Jamaat, who also knocks the doors. Therefore I said, well, if they 
simply invite people to the mosque, then this is okay? If they do not 
proselytize and if they do not preach at the door, this is fine?
    So, it's a policy that is targeting everyone, but specifically 
addressing the Christian community. In some ways there is this bias: it 
is not open, and it is not specifically explicitly stated. Yet it is 
there, right? And as it has been mentioned, particularly in regard to 
registration, there are now nearly 400 organizations which are 
registered--Christian organizations--with the state committee. Yet 
Mormons, for example, struggle. They still did not register themselves.
    Numbers are important. The law works in such a way that to register 
an organization, you have to have a certain number of followers in a 
particular settlement. That is very difficult to have somewhere in the 
village in Kyrgyzstan, in the remote area. This way, the government 
creates these artificial obstacles for the communities to register and 
be legal and function properly.
    Dr. Collins. Thank you.
    I would add to that that in some cases, Kyrgyzstan's law on 
religion, which is actually quite harsh including the more recent 
amendments and restrictions on proselytism, don't necessarily 
distinguish it from the rest of the region.
    On the other hand, Kyrgyzstan historically is sort of laissez faire 
in actually implementing the law. Often this works to the benefit of 
believers. So, for example, you pointed to another issue, which is 
registration. Registration of religious communities is not easy in 
Kyrgyzstan, and the law seems to be designed to prevent particularly 
new religious groups, whether Christians or sort of non-mainstream 
Muslims, from actually registering their churches or their mosques.
    On the other hand, implementation is often quite weak. So you see 
house churches existing across the country where people gather and 
worship in private within sort of small churches that exist behind the 
walls of particular houses on small streets. It's incredibly hard to 
find them, which speaks to the fact that they're doing so in fear, even 
though they can exist. There are really sort of two sides to the coin. 
The legal framework is not very good. The implementation is generally 
quite bad. But people still exist and believe in practice in a certain 
amount of fear, because they know that the situation could become 
harsher.
    I think the same is true with the case of the Hizb ut-Tahrir Party, 
which was banned as extremist. The legislation is not terribly 
different from the legislation on extremist organizations elsewhere in 
the region, and yet the implementation is typically much softer in 
Kyrgyzstan. It's gotten worse, I think, under President Bakiyev and 
since, but Hizb ut-Tahrir members are typically arrested. Perhaps 
they're fined, briefly detained, and then released, as opposed to 
thousands of them being arrested and given 15- to 18- to 20-year prison 
sentences, the way they are in other countries in the region.
    Mr. Hurd. Dr. Nasrutdinov, I especially appreciated your comment 
about the government sort of seeing itself as an arbiter of harmony and 
that part of its responsibility was to prevent discord. It was very 
striking in the meetings that we had with government officials in 
Uzbekistan--there was a very similar theme. There didn't seem to be, or 
at least we didn't hear, a recognition and acknowledgement that in a 
multi-religious country, where people have strong views about theology, 
the nature of reality, morality, et cetera, there are going to be 
disagreements and disputes. This is just a normal thing that comes with 
a multi-religious country, but that there isn't this sort of 
inevitability that it will result in violent conflict, and that 
nonviolent conflict is actually not something to be afraid of; but 
anyway, appreciated those comments.
    Mr. Price. I wanted to ask about another caution that we heard 
during our trip and that many of you have alluded to, and that is about 
the specter of political Islam. I was wondering to what extent you all 
see this as a present or a prospective threat that the regimes of the 
region perceive. Are there currently political Islamic movements that 
are popular and salient within societies? Or is this just a concern 
about if there were an opening, that there would be an easy coalescing 
around Islamic themes in terms of political opposition?
    Dr. Lemon. I guess you need to understand sort of what they mean by 
political Islam. Do they mean sort of officially registered Islamic 
parties, or do they mean sort of the influence of Islam within 
politics? I think they take quite a broad definition of political Islam 
that sort of any ways in which religion can have an effect on politics, 
be it sort of formal or informal, is potentially a threat to their 
security.
    Obviously, within the Tajik case, they had an Islamic party till 
2015, and gradually conflated the Islamic Renaissance Party with groups 
like ISIS, said they were a conveyor belt to extremism, merged the two 
categories together, and eventually blamed the organization for a coup 
and banned it.
    Now, constitutional amendments 2 years ago, in fact, now prohibit 
the re-establishment of religious party in Tajikistan. So, at least 
under the current administration, it's difficult to envisage the re-
emergence of the faith-based party. I think that would be probably the 
case across the whole region, maybe with the possible exception of 
Kyrgyzstan, and that's maybe again viewed through the lens of regime 
security. And if there were to be an Islamic party, then it would be a 
potential threat, although you could maybe envisage the setting up of a 
pseudo-party, as we've seen in other parts of the region where each 
parliament is filled with parties, but they're all effectively sort of 
constructed by the regime. So, we may see in the future the 
construction of an Islamic party, but it may be sort of in non-
oppositional terms.
    Dr. Nasrutdinov. I think it's important to look at the specific 
influences and groups that's popular in the country. In Kyrgyzstan, the 
most popular group is the Tablighi Jamaat, and it's by nature 
apolitical. It's one of the reasons why it is legal and popular in many 
other parts of the world, including the United States. Non-engagement 
with politics is one of the core principles--a kind of a pacifist 
attitude where you just accept the government. It is the belief that 
through your own religious practice that you change the world, not 
through direct engagement with the politics.
    The Turkish groups see engagement in politics also in a slightly 
kind of long-term perspective. A number of representatives of Fethullah 
Gulen movement who work in Turkish [inaudible] schools in Kyrgyzstan 
stated in their interviews that they see their graduates as the future 
elite of the country because it is not cheap to study in such schools. 
Therefore, it's mostly higher/middle-class-income communities who can 
afford them. Thus, these are the ones who will be the future 
bureaucrats, the future state officials, the future kind of businessmen 
of the country, and they will have this kind of more pro-Turkey, pan-
Turkic vision.
    The Salafi groups that we have are also predominantly moderate, 
classical, and also apolitical Salafis. Yet there are a number of more 
active political groups, but few of them are banned, but also in 
numbers they're not as popular as just kind of moderate Salafis. Here 
they also claim not to be engaged in politics.
    The way they see the religion interfering into the politics is 
through the practices of people who are already politicians. And we 
have a number of parliament deputies, such as Tersimbai Bekirulou [ph], 
for example, who regularly made kind of pro-religious public statements 
in parliament and lobbied certain laws, such as allowing two wives and 
legalizing second marriages, et cetera.
    Finally, we see kind of the engagement with the politics is through 
just generally wider appreciation of a more religious approach to 
politics. As I've mentioned, one-third of our respondents stated that 
they would support a candidate with stronger religious views. Another 
third suggested that they would support the introduction of Sharia law. 
One of them might not even understand what Sharia law means, but this 
whole sentiment is there. More and more young people believe that 
religion should be a part of politics. But again, this is not a part of 
any specific group or ideology that is being presented.
    Dr. Collins. I'll just add that, yes, I agree in general that 
governments do exaggerate the threat of political Islam, which they 
tend to equate with radicalism, violent extremism, across the region. 
It's a convenient way of labeling all potential political opposition 
and maintaining very strict control over the country.
    Political Islam of any stripe is extremely weak in all of the 
countries. Certainly in Tajikistan, where it was most vibrant with the 
Islamic Renaissance Party, since that party was banned, it's virtually 
nonexistent, at least openly, there as well.
    I would also add that I think, again, the repression has led to the 
growth of extremism. And it's this conjunction of repression, otherwise 
extremely difficult political economic conditions, pervaded by 
corruption, and the exposure, whether it's in Russia, as being a labor 
migrant, or through the internet to these social-media videos that are 
spreading, disseminating the message that political Islam of some 
stripe is the solution to your problems.
    So, I think there is a growth in sympathy for--or attraction to--
these ideas of radicalism, whether as ISIS or some other variant of 
that. The numbers certainly are small. I don't think they're in any way 
a threat to the Central Asian regimes themselves. But small numbers, 
even several thousands, going to Syria or to Afghanistan or a handful 
of individuals coming back and waging attacks like we saw in Tajikistan 
in July, or in Moscow or in Istanbul or New York, are still a problem 
that I think that we should be concerned about. At the moment, I think 
they're primarily likely to stay within Afghanistan or Syria and not 
return home, in large part because the security services at home are so 
restrictive.
    The third point I would add is that I do think that there has been, 
with this generational change, a growing sympathy for ideas of sort of 
soft political Islam, or sort of the normal public presence of 
religion, Islam in particular, in public political life, whether that's 
through support for having some form of a religious party, as we saw 
was just banned in Tajikistan. I think that sentiment is broader. It 
exists in Uzbekistan and Kyrgyzstan as well for adopting some ideas of 
Sharia, again, with not necessarily knowing what Sharia means, but 
equating Sharia with justice and with a lack of corruption and cleaning 
up the corruption in the country.
    I did surveys in Kyrgyzstan and Azerbaijan, as well as the focus 
groups across the region, and that was sort of a persistent theme. And 
mine were probably a few years before yours, Dr. Nasrutdinov, but I 
think at the time we found close to 20, 25 percent, depending on the 
question, of support for certain ideas of Sharia being implemented 
within the political system; not necessarily calling for an Islamic 
state, certainly not calling for a caliphate, but calling for the most 
part, for a sort of broader, healthier role for religion, Islam in 
particular, within society.
    Mr. Hurd. Thank you.
    Thanks to our panelists for a very rich and educative discussion.
    Thanks to our audience members, those of you here in person and 
those of you watching online; as well as thanks to some of our 
colleagues behind the scenes who make events like this possible, in 
particular our hearing and other events coordinator, Jordan; Stacy, our 
communications director; and Alexa, our intern.
    Thanks very much, and have a good evening. [Applause.]
        [Whereupon, at 5:01 p.m., the briefing ended.]
        
        
                           A P P E N D I X


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                       [all]
  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe [OSCE].

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
